TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    While Improvements Have Been Made,
                  Business Systems Modernization Cost and
                  Schedule Estimation Processes Have Not
                  Always Been Followed and Major Changes
                                Are Planned



                                           October 2005

                              Reference Number: 2006-20-002




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             October 19, 2005


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – While Improvements Have Been Made, Business
                             Systems Modernization Cost and Schedule Estimation Processes Have
                             Not Always Been Followed and Major Changes Are Planned
                             (Audit # 200520004)

 This report presents the results of our review of Business Systems Modernization (BSM) cost
 and schedule estimation processes and trends. The overall objective of this review was to
 determine the status and effectiveness of corrective actions implemented in response to our prior
 audit report1 on the cost and schedule estimation process for the BSM program. In addition, we
 followed up on another prior report2 to update trends in the BSM program’s accomplishments
 against initial cost and schedule estimates.
 The BSM program has been plagued with cost and schedule overruns and criticized for its
 ineffective cost and schedule estimation capabilities. The Government Accountability
 Office (GAO) recently reported3 BSM projects had exceeded cost estimates by over $400 million
 and schedule estimates by up to 33 months. The GAO concluded cost and schedule shortfalls
 were likely to continue until cost and schedule estimation practices were fully implemented.




 1
   The Cost and Schedule Estimation Process for the Business Systems Modernization Program Has Been Improved,
 but Additional Actions Should Be Taken (Reference Number 2003-20-219, dated September 2003).
 2
   Analysis of Business Systems Modernization Cost, Schedule, and Functionality Performance (Reference
 Number 2003-20-007, dated October 2002).
 3
   Business Systems Modernization: IRS’s Fiscal Year 2004 Expenditure Plan (GAO-05-46, dated November 2004).
                    While Improvements Have Been Made, Business Systems
                 Modernization Cost and Schedule Estimation Processes Have Not
                     Always Been Followed and Major Changes Are Planned



Synopsis
The BSM Office (BSMO) has made progress in implementing the cost and schedule estimation
recommendations included in our prior audit report.4 Corrective actions for three of the five
previous audit recommendations were completed. For example, the PRIME contractor5
developed procedures for calibrating6 cost and schedule estimation models, and the BSMO
conducted cost and schedule estimate reviews and had begun to trend the results. However,
corrective actions for two of the five previous audit recommendations were not timely completed
and will be affected by planned program changes.
We also concluded cost and schedule estimation processes in the BSM program were not always
followed. We determined estimate review documentation did not explain the results of using a
second cost and schedule estimation method, the PRIME Estimation Guidebook did not clearly
present the requirements to use a second cost and schedule estimation method, cost and schedule
estimate proposals submitted for review did not contain the required supporting documentation,
and issues identified during estimation activities were not input to the Item Tracking Reporting
and Control (ITRAC)7 system.
To update our cost and schedule estimate trend analysis from October 2002,8 we reviewed
information presented in all available BSM expenditure plans.9 We determined active and
deployed BSM projects have varied from original cost estimates contained in the expenditure
plans by over $480 million. This equates to 78 percent more than the estimates originally
provided to Congress. Cost variances are generally trending downward; however, the trend is
not consistent. We determined the inconsistency was due to the projects and their associated life
cycle10 phases being funded in each expenditure plan. Generally, the expenditure plans that fund
major systems moving into the later phases of the life cycle have higher cost variances than those
mainly funding projects early in the life cycle. We also determined active and deployed BSM
projects have varied from original schedule estimates by an average of 18 months.

4
  The Cost and Schedule Estimation Process for the Business Systems Modernization Program Has Been Improved,
but Additional Actions Should Be Taken (Reference Number 2003-20-219, dated September 2003).
5
  The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
information technology.
6
  Calibration involves reviewing and adjusting estimation models to ensure they represent the PRIME contractor’s
specific cost and product history.
7
  The BSM Risk Management Plan requires all modernization organizations use the ITRAC database to record and
update the status of issues.
8
  Analysis of Business Systems Modernization Cost, Schedule, and Functionality Performance (Reference
Number 2003-20-007, dated October 2002).
9
  The BSMO provides Congress justification to release funds specifically set aside for the BSM effort by submitting
BSM expenditure plans.
10
   See Appendix V for an overview of the Enterprise Life Cycle.
                                                                                                                  2
                    While Improvements Have Been Made, Business Systems
                 Modernization Cost and Schedule Estimation Processes Have Not
                     Always Been Followed and Major Changes Are Planned


The Internal Revenue Service (IRS) recently reported Fiscal Year 2004 was a banner year for
meeting cost and schedule estimates. Our analysis of the rebaselined project deliveries
confirmed the IRS’ assessment that implemented project releases were generally within budget
and on time, based on estimates from the May 2004 BSM Expenditure Plan. While the ability to
meet short-term goals is a noteworthy accomplishment, the ability of the BSM program to
sustain its Fiscal Year 2004 accomplishments with projects in earlier stages of the life cycle
remains to be seen.
The IRS has recently taken steps to limit cost increases and schedule delays. For example, the
IRS is establishing a Requirements Management Office to help avoid the recurring issues that
have contributed to additional project costs and delays. IRS executives also stated they were
concerned the prevailing variance methodology did not accurately depict variances within the
BSM program and had begun discussions to revise the methodology for computing variances.

Recommendations
To ensure cost and schedule estimate reviews can be conducted effectively in the absence of the
PRIME Estimation Guidebook, we recommended the Chief Information Officer (CIO) ensure all
modernization systems development contractors provide consistent cost and schedule estimation
data. To ensure adequate documentation on the use of a second cost and schedule estimation
method is received for review, we recommended the CIO develop an alternative way to clearly
inform modernization contractors when the use of a second estimation method is needed and
issue clear guidance requiring the results of using multiple estimation methods to be explained.
To ensure issues are formally tracked to closure, the CIO should determine if any remaining
issues from the IRS PRIME Validation Report11 are relevant to the new environment. If any
issues are determined to be relevant, these issues should be documented and tracked in the
ITRAC system.

Response
IRS management agreed to the three report recommendations. The IRS is developing a revised
Basis of Estimate (BOE)12 guidance document which outlines expectations for substantiating cost
and schedule estimates. The IRS will conduct a 6 month trial implementation period, after which
the IRS will determine the impact of the revised guidance on contract costs and assess the cost
effectiveness of implementing the guidance across the entire BSM program. The IRS will also

11
   The PRIME Validation Report provides the results of the IRS’ review of the PRIME contractor’s cost and
schedule estimation capability.
12
   A BOE template is a tool used to estimate all task order proposals. It includes specific sections that must be
documented to justify the estimate proposal, such as what work will be performed, the schedule estimate, and the
staffing summary.
                                                                                                                    3
                    While Improvements Have Been Made, Business Systems
                 Modernization Cost and Schedule Estimation Processes Have Not
                     Always Been Followed and Major Changes Are Planned


obtain a second estimate through either an Independent Government Cost Estimate13 or a BOE.
The IRS stated it has completed an assessment of the IRS PRIME validation report and, due to
the program changes, determined that no relevant issues remained. Management’s complete
response to the draft report is included as Appendix X.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




13
  The purpose of an Independent Government Cost Estimate is to provide an independent and realistic estimate that
can be compared with the contractor’s proposed cost.
                                                                                                                4
                       While Improvements Have Been Made, Business Systems
                    Modernization Cost and Schedule Estimation Processes Have Not
                        Always Been Followed and Major Changes Are Planned




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Business Systems Modernization Office Has Made Progress in
          Implementing Cost and Schedule Estimation Recommendations and
          Will Need to Continue to Make Adjustments Due to the Effect
          of Program Changes......................................................................................Page 3
          Corrective Actions for Two Previous Audit Recommendations Were Not
          Completed by the Original Due Dates and Will Be Affected by Program
          Changes.........................................................................................................Page 5
                    Recommendation 1:........................................................Page 7

          Cost and Schedule Estimation Processes Have Not Always Been
          Followed .......................................................................................................Page 7
                    Recommendation 2:........................................................Page 11

                    Recommendation 3: .................................................................. Page 12

          Cost and Schedule Estimates Show Signs of Improvement; However,
          Development and Deployment Variances Have Been Substantial ...............Page 12

Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 19
          Appendix II – Major Contributors to This Report ........................................Page 21
          Appendix III – Report Distribution List .......................................................Page 22
          Appendix IV – Business Systems Modernization Office Cost
          and Schedule Estimate Review Trends.........................................................Page 23
          Appendix V – Enterprise Life Cycle Overview............................................Page 25
          Appendix VI – Treasury Inspector General for Tax Administration
          Cost and Schedule Variance Methodology...................................................Page 30
             While Improvements Have Been Made, Business Systems
          Modernization Cost and Schedule Estimation Processes Have Not
              Always Been Followed and Major Changes Are Planned



Appendix VII – Business Systems Modernization Funding Timeline .........Page 32
Appendix VIII – Business Systems Modernization Project Cost and
Schedule Variances.......................................................................................Page 34
Appendix IX – Business Systems Modernization Project Descriptions.......Page 37
Appendix X – Management’s Response to the Draft Report .......................Page 41
                   While Improvements Have Been Made, Business Systems
                Modernization Cost and Schedule Estimation Processes Have Not
                    Always Been Followed and Major Changes Are Planned




                                          Background

The Internal Revenue Service (IRS) is currently modernizing its computer systems and business
processes and practices. This effort is known as the Business Systems Modernization (BSM).
Since the inception of the BSM, the Government Accountability Office (GAO) has designated
the program as high risk, in part because of its size, complexity, and immense importance to
improving IRS performance and accountability.
In December 1998, the IRS hired the Computer Sciences Corporation as the PRIME contractor
to design and develop the BSM program and projects. The expectation was that the PRIME
contractor would strengthen the IRS’ ability to manage and control modernization initiatives. In
addition, the IRS created the Business Systems Modernization Office (BSMO) to coordinate and
oversee the work of the PRIME contractor.
While the partnership between the PRIME contractor and the BSMO was meant to strengthen
systems acquisition and development capabilities, the BSM program has been plagued with cost
and schedule overruns and criticized for its ineffective cost and schedule estimation capabilities.
For example, in October 2002, we reported the BSM program had experienced a $75 million, or
24 percent, cost increase for the 20 projects initiated since 1999.1 Since that time, cost increases
and schedule delays have continued to mount. In November 2004, the GAO reported BSM
projects had exceeded cost estimates by over $400 million and schedule estimates by up to
33 months.2 The GAO concluded cost and schedule shortfalls were likely to continue until cost
and schedule estimation practices were fully implemented.
We completed our initial review of the cost and schedule estimation process in
September 2003.3 We found the BSMO and the PRIME contractor had made progress in
establishing a cost and schedule estimation system; however, we determined the BSMO could
take additional steps to further improve the cost and schedule estimation system.
In September 2004, the BSMO issued a report on the validation of the PRIME contractor’s cost
and schedule estimation capability. The report stated, in summary, that the PRIME contractor’s
cost and schedule estimation capability had significantly improved, but estimation processes and
compliance were still inadequate in some respects. The report stated the primary area of
observed weakness was execution. Despite efforts to provide a sound estimation foundation


1
  Analysis of Business Systems Modernization Cost, Schedule, and Functionality Performance (Reference
Number 2003-20-007, dated October 2002).
2
  Business Systems Modernization: IRS’s Fiscal Year 2004 Expenditure Plan (GAO-05-46, dated November 2004).
3
  The Cost and Schedule Estimation Process for the Business Systems Modernization Program Has Been Improved,
but Additional Actions Should Be Taken (Reference Number 2003-20-219, dated September 2003).
                                                                                                     Page 1
                  While Improvements Have Been Made, Business Systems
               Modernization Cost and Schedule Estimation Processes Have Not
                   Always Been Followed and Major Changes Are Planned



within the PRIME contractor, there was little evidence the guidance was being followed. The
PRIME contractor agreed with the assessment.
By Fiscal Year (FY) 2005, funding levels for the BSM program had decreased and the IRS had
to initiate changes in critical program-level roles that were previously performed by the PRIME
contractor, including development and implementation of effective cost and schedule estimation
processes. The Associate Chief Information Officer (ACIO), BSM, informed us of these
changes as we were completing our audit work. Because these changes have a significant effect
on our audit work, we have correlated our work to planned changes in the BSM program
throughout this report (see Effect of Program Changes sections throughout the report).
In addition, we communicated interim results of our audit, as well as suggestions for
improvement, to the BSMO in February 2005. Any continuing changes that have occurred since
we concluded our analyses are not reflected in this report. As a result, this report may not reflect
the most current status.
This review was performed at the BSMO facilities in New Carrollton, Maryland, during the
period October 2004 through March 2005. The audit was conducted in accordance with
Government Auditing Standards. Detailed information on our audit objectives, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                             Page 2
                    While Improvements Have Been Made, Business Systems
                 Modernization Cost and Schedule Estimation Processes Have Not
                     Always Been Followed and Major Changes Are Planned




                                     Results of Review

The Business Systems Modernization Office Has Made Progress in
Implementing Cost and Schedule Estimation Recommendations and
Will Need to Continue to Make Adjustments Due to the Effect of
Program Changes

The BSMO has made progress in implementing the cost and schedule estimation
recommendations included in our prior audit report.4 Corrective actions for three of the five
previous audit recommendations were completed.

Cost and schedule estimation model calibrations

In our prior report, we recommended the Chief Information Officer (CIO) ensure the PRIME
contractor documents the process for cost and schedule estimation model calibrations.5 The
Federal Acquisition Regulation (FAR) states the Federal Government may use various cost
analysis techniques and procedures to ensure a fair and reasonable price, given the circumstances
of the acquisition.6 These techniques and procedures include the reasonableness of estimates
generated by appropriately calibrated and validated models.
We determined the PRIME contractor developed procedures for calibrating cost and schedule
estimation models, calibrated the Constructive Cost Model (COCOMO),7 and prepared a
schedule showing when other models would be calibrated. For cost and schedule estimates
prepared between December 2003 and October 2004, we determined all models were calibrated
prior to being used to prepare estimates.
Effect of Program Changes: The PRIME contractor has disbanded the office that ensured cost
and schedule estimation models were calibrated and scheduled future calibrations. Requirements
to calibrate models will need to be communicated to each modernization project in the future.


4
  The Cost and Schedule Estimation Process for the Business Systems Modernization Program Has Been Improved,
but Additional Actions Should Be Taken (Reference Number 2003-20-219, dated September 2003).
5
  Calibration involves reviewing and adjusting estimation models to ensure they represent the PRIME contractor’s
specific cost and product history.
6
  FAR, 48 C.F.R. pt 15.404-1 (c)(2)(C) (2002).
7
  The COCOMO refers to the COCOMO II estimation model, which is a tool used by the PRIME contractor for
developing estimates. The model is updated with actual data from completed projects and then used to develop
estimates for similar projects in the PRIME contractor environment.
                                                                                                         Page 3
                   While Improvements Have Been Made, Business Systems
                Modernization Cost and Schedule Estimation Processes Have Not
                    Always Been Followed and Major Changes Are Planned




Cost and schedule estimate review trends

In our prior report, we recommended the CIO ensure the BSMO updates draft procedures to
include guidance on trending estimate review results. According to Software Engineering
Institute (SEI)8 guidance, the estimating capability of an organization should be quantified,
tracked, and evaluated. Evidence of maturity in this area includes management tracking and
reviewing the effectiveness of its estimation processes.
We determined the BSMO was conducting cost and schedule estimate reviews and had begun
trending the results. As of December 2004, eight estimate reviews were trended, and the results
show the PRIME contractor has made very little improvement in compliance with estimation
procedures.9 As mentioned previously, the IRS has begun taking over program-level
responsibility for cost and schedule estimation from the PRIME contractor.
Effect of Program Changes: The PRIME contractor has disbanded the office that performed
quality reviews of cost and schedule estimates before they were provided to the IRS for review.
The effect on the quality of estimates will not be known until future cost and schedule estimates
are received.

Process updates

In our prior report, we recommended the CIO ensure the PRIME contractor revises the cost and
schedule estimation guidebook and applicable Enterprise Life Cycle (ELC)10 references to
provide details of what specific documentation is required to support estimates. In addition, we
recommended the CIO ensure the BSMO updates draft procedures to include guidance on
providing the cost and schedule estimation system validation and estimate review reports to the
Office of Procurement.
We determined the PRIME contractor updated its PRIME Estimation Guidebook to include the
documentation modernization contractors should provide to support estimate proposals.
However, we noted the requirements for using a second estimation method to validate estimation
results were not clearly presented in the Guidebook, and estimate proposals did not contain the




8
  The SEI is a Federally Funded Research and Development Center whose purpose is to help others make measured
improvements in their software engineering capabilities.
9
  See Appendix IV for the BSMO’s trending results.
10
   See Appendix V for an overview of the ELC.
                                                                                                      Page 4
                    While Improvements Have Been Made, Business Systems
                 Modernization Cost and Schedule Estimation Processes Have Not
                     Always Been Followed and Major Changes Are Planned



required supporting documentation.11 We also determined the Office of Procurement had
received the IRS PRIME Validation Report.
Effect of Program Changes: The BSMO staff advised us the PRIME Estimation Guidebook
would not be used in the estimation process the IRS is developing. As a result, the BSMO will
need to institute controls in a different manner to ensure modernization contractors submit
estimate proposals that are supported with proper documentation.


Corrective Actions for Two Previous Audit Recommendations Were
Not Completed by the Original Due Dates and Will Be Affected by
Program Changes

Corrective actions for two of the five previous audit recommendations were not timely
completed. The due dates for both recommendations were extended during our audit work.
Both of these corrective actions will be affected by the IRS taking over program-level cost and
schedule estimation duties from the PRIME contractor.

Cost and schedule estimation processes for all modernization contractors

In our prior report, we recommended the CIO ensure all contractors working on BSM projects
follow the PRIME contractor’s policies and procedures for preparing cost and schedule estimates
and provide data for inclusion in the historical database. We determined that, without specific
requirements for all modernization contractors to follow established policies and procedures,
there would not be consistency in the estimation process. The historical database was needed to
provide a solid historical measurement basis for more accurate estimates.
We determined the BSMO developed solicitation language12 to require all modernization
contractors to adhere to the PRIME contractor’s cost and schedule estimation procedures.
However, at the time of our review, the solicitation language was being reviewed by the Office
of Procurement and had not been implemented.
The PRIME contractor also updated the PRIME Estimation Guidebook for use by all contractors
working on modernization projects. However, our review of the updated Guidebook determined


11
   See the Cost and Schedule Estimation Processes Have Not Always Been Followed section later in this report for
additional information on this topic.
12
   Solicitation language or contract language can be defined as a document containing special clauses and provisions
that have been identified as essential for the acquisition of a specific type of supply or service that is acquired
repetitively.
                                                                                                            Page 5
                    While Improvements Have Been Made, Business Systems
                 Modernization Cost and Schedule Estimation Processes Have Not
                     Always Been Followed and Major Changes Are Planned



it contained too many PRIME contractor-specific requirements to be effectively used by
non-PRIME modernization contractors.
In addition, the PRIME contractor database of historical cost and schedule estimation
information had not been completed. The delay was due to unresolved concerns over how to
protect non-PRIME modernization contractors’ proprietary data.13
Effect of Program Changes: The PRIME Estimation Guidebook will no longer be used in the
estimation process. At the conclusion of our review, the BSMO was proposing to issue guidance
on cost and schedule estimation to all contractors as part of the solicitation process. The BSMO
does not have a centralized database of historical estimation information. If the BSMO wants to
create its own historical database, it will need to develop a method to request this information
and build a database to house the data.

Independent review of the cost and schedule estimation process

In our prior report, we recommended the CIO ensure the SEI is requested to conduct an
independent review of the cost and schedule estimation system once the initial validation is
complete and policies and procedures are fully implemented. The BSMO had not contracted
with the SEI to perform an independent review of the estimating system because several
processes were still maturing. Based on our evaluation, we agree the estimation program is not
ready for an independent review.
For example, we noted solicitation language had not been implemented and the risk adjustment
process for preparing estimates was not well understood. In addition, we determined the PRIME
contractor had not been effective in performing the estimation processes already in place.14
Management Action: After our review was completed, the CIO requested the corrective action
regarding contracting with the SEI be revised to “analyze methods and present
recommendation(s) for [an] alternative way to further improve the cost estimation process and
procedures for the BSM program.” In light of the significant changes in program direction, we
agreed to this revision.




13
   Proprietary refers to any information a contractor has designated as owned by the contractor that must be
protected from unauthorized disclosure, according to the FAR.
14
   See the Cost and Schedule Estimation Processes Have Not Always Been Followed section later in this report for
additional information on this topic.

                                                                                                          Page 6
                    While Improvements Have Been Made, Business Systems
                 Modernization Cost and Schedule Estimation Processes Have Not
                     Always Been Followed and Major Changes Are Planned




Recommendation
Recommendation 1: To ensure cost and schedule estimate reviews can be conducted
effectively in the absence of the PRIME Estimation Guidebook, the CIO should ensure all
modernization systems development contractors provide consistent cost and schedule estimation
data.
         Management’s Response: The CIO agreed with this recommendation. The IRS is
         developing a revised Basis of Estimate (BOE)15 guidance document which outlines
         expectations for substantiating cost and schedule estimates. The IRS will conduct a
         6 month trial implementation period, after which the IRS will determine the impact of the
         revised guidance on contract costs and assess the cost effectiveness of implementing the
         guidance across the entire BSM program.


Cost and Schedule Estimation Processes Have Not Always Been
Followed

The PRIME Estimation Guidebook describes the framework for the processes used to produce
cost and schedule estimates associated with PRIME contractor task order proposals. The
Guidebook requires cost and schedule estimate proposals to be thoroughly documented in a BOE
template. The BOE should be complete and present an auditable trail of steps that can be
reproduced by BSMO reviewers and contain justification for the estimating approach.
Our review of the Guidebook, the BOE procedures, and three PRIME contractor cost and
schedule estimate proposals submitted to the BSMO for review identified the following
concerns:
     •   Estimate review documentation did not explain the results of using a second cost and
         schedule estimation method.
     •   The PRIME Estimation Guidebook did not clearly present the requirements to use a
         second cost and schedule estimation method.
     •   Cost and schedule estimate proposals submitted for review did not contain the supporting
         documentation required to determine the validity and reliability of the estimates.



15
   A BOE template is a tool used to estimate all task order proposals. It includes specific sections that must be
documented to justify the estimate proposal, such as what work will be performed, the schedule estimate, and the
staffing summary.
                                                                                                            Page 7
                   While Improvements Have Been Made, Business Systems
                Modernization Cost and Schedule Estimation Processes Have Not
                    Always Been Followed and Major Changes Are Planned



     •   Issues identified during estimation activities were not input to the Item Tracking
         Reporting and Control (ITRAC)16 system.

Estimate review documentation did not explain the results of using a second cost
and schedule estimation method

The SEI requires the differences in results from using multiple methods to be analyzed and
explained in estimate review documentation when more than one estimating approach is used.
None of the cost and schedule estimate documentation we reviewed included an explanation of
the results of using a second estimation method. PRIME contractor personnel informed us they
do use more than one estimation method when preparing estimates; however, they did not
present information on the second method because they believed it would be confusing to the
IRS estimate review team.
We requested example documentation of the use of a second method from the PRIME contractor
and were provided with information for the Customer Account Data Engine (Release 1.2).17 In
this case, the second method validated the cost estimate but indicated the schedule estimate was
compressed. In fact, the second method indicated the schedule estimate could be 8 to 11 months
longer than proposed.
Without information on the results of a second method, the IRS does not know whether the two
methods produced comparable estimates and whether the proposed estimates are valid. With this
information, the IRS could gain confidence in the submitted estimate or know when there are
significant risks associated with the proposed estimates.
Effect of Program Changes: Since the PRIME Estimation Guidebook will no longer be used, the
BSMO will need to develop an alternative method to ensure results of using a second method are
provided to it for review.

The PRIME Estimation Guidebook did not clearly present the requirements to use
a second cost and schedule estimation method

In our prior audit, we recommended the BSMO clarify when a second estimation method is
needed. In response, the IRS commented that the use of multiple estimation methods was
discussed in the June 30, 2003, PRIME Estimation Guidebook, which describes the processes



16
   The BSM Risk Management Plan requires that all modernization organizations use the ITRAC database to record
and update the status of issues.
17
   See Appendix IX for a description of the Customer Account Data Engine project.
                                                                                                       Page 8
                  While Improvements Have Been Made, Business Systems
               Modernization Cost and Schedule Estimation Processes Have Not
                   Always Been Followed and Major Changes Are Planned



and detailed steps for producing the estimates associated with PRIME contractor task order
proposals.
Our review of the current Guidebook determined guidance on when to use a second cost and
schedule estimation method could be made clearer. We also found certain terms needed to be
defined. For example, the guidance includes terms such as “major projects,” “large segment,”
and “large uncertainty” that were not defined and, thus, are open to interpretation. Without clear
guidance, modernization contractors may not know when a second method is required and could
submit invalid and unreliable estimate proposals.
Effect of Program Changes: The PRIME Estimation Guidebook will no longer be used. As
such, the BSMO will need to develop an alternative method of providing modernization
contractors with clear requirements on when to use a second cost and schedule estimation
method in developing and submitting estimate proposals.

Cost and schedule estimate proposals submitted for review did not contain the
supporting documentation required to determine the validity and reliability of the
estimates

In our prior report, we recommended the CIO ensure the PRIME contractor revises the cost and
schedule estimation guidebook to provide details of what specific documentation is required to
support estimates. As mentioned previously, we determined the PRIME contractor had updated
the PRIME Estimation Guidebook to include the documentation contractors should provide to
support estimate proposals. However, our review of estimate proposals shows the PRIME
contractor did not always follow its guidance.
The PRIME Estimation Guidebook requires estimate proposals to be thoroughly documented in a
BOE that is complete and presents an auditable trail of steps that can be reproduced by BSMO
reviewers. The primary elements of an estimate proposal generally consist of workload size,
effort, and schedule. Workload size defines the work to be accomplished (services or products),
effort is an estimate of the amount of resources required to produce the services or products, and
schedule identifies the steps to be performed and when the work should be completed.
Our review of the results of three estimate proposals prepared between December 2003 and
October 2004 showed estimates were submitted without required supporting documentation.
The missing documentation, which is required by estimation guidelines, confirms the IRS
PRIME Validation Report findings that lack of compliance with estimation procedures is a
continuing problem.
During our review of the results from the three estimate proposals, we noted the BSMO review
team documented numerous errors in calculating costing factors, such as staff hours and staff
months. One of the review teams estimated the errors could be around 2,000 hours. To obtain a

                                                                                           Page 9
                    While Improvements Have Been Made, Business Systems
                 Modernization Cost and Schedule Estimation Processes Have Not
                     Always Been Followed and Major Changes Are Planned



further understanding of what was missing in the contractor-provided cost and schedule
estimates, we judgmentally selected 36 instances in which the BSMO reviewers commented the
contractor’s proposals were missing required supporting documentation.
     •   Workload size and effort – In 28 (77.8 percent) of the 36 instances, the workload size
         and the effort estimates were affected by the missing documentation. In some instances,
         the estimates did not include historical data to support the workload size and productivity
         figures. As a result, the BSMO review team concluded that, in the absence of historical
         data, the estimates needed to be supplemented to determine the reasonableness of the
         engineering judgments that underlie the assumptions, workload sizing, and productivity.
     •   Previous estimation models – In 3 (8.3 percent) of the 36 instances, the estimates did
         not include sufficient details about the previous estimation models used to produce the
         estimate under review.
     •   Travel costs – In 2 (5.6 percent) of the 36 instances, travel costs were either not
         mentioned or not justified by the support provided with the estimates.
     •   Schedule and risk documentation – In 2 (5.6 percent) of the 36 instances, the BSMO
         review team did not have enough information to determine how the schedule was
         developed, and a risk analysis had not been performed.
     •   Audit trail – In 1 (2.8 percent) of the 36 instances, the estimate lacked an audit trail to
         allow the reviewer to reproduce the estimate. In this instance, the BSMO review team
         stated the lack of an audit trail had been evidenced in all PRIME contractor estimate
         proposals they had reviewed.
PRIME contractor management did not ensure cost and schedule estimation procedures were
followed. The IRS also stated it believed the lack of time to prepare estimates due to unstable
requirements18 was a key contributing factor to the lack of completeness in PRIME
contractor-submitted documentation. As a result, the IRS received estimate proposals that could
not be verified by objective documentation and that can delay the contract negotiation process.
Effect of Program Changes: The PRIME Estimation Guidebook will no longer be used in the
estimation process. At the conclusion of our review, the BSMO was proposing to issue guidance
on cost and schedule estimation to all contractors as part of the solicitation process. In addition,
the ACIO, BSM, wants to increase competition, which could lead to modernization contractors
providing more complete estimate information.19


18
  The IRS is creating a Requirements Management Office to address requirements stability.
19
  See the Corrective Actions for Two Previous Audit Recommendations Were Not Completed by the Original Due
Dates and Will Be Affected by Program Changes section earlier in this report for a recommendation related to this
topic.

                                                                                                         Page 10
                    While Improvements Have Been Made, Business Systems
                 Modernization Cost and Schedule Estimation Processes Have Not
                     Always Been Followed and Major Changes Are Planned




Issues identified during estimation activities were not input to the ITRAC system

In our prior audit, we recommended procedures be updated to require that all issues identified in
cost and schedule estimation reviews be included in the ITRAC system. The BSM Risk
Management Plan requires that all modernization organizations use the ITRAC system to record
and update the status of issues. Although the estimation procedures were revised to include a
requirement to input risks and issues identified during cost and schedule estimation reviews in
the ITRAC system, the risks and issues identified in the only estimate review accepted during
our audit period were not input to the ITRAC system. However, we determined the BSMO
review team uses a checklist as a compensating control, which ensures issues from estimate
reviews are tracked until they are resolved.
In our prior report, we also recommended procedures be updated to require that all issues
identified in the IRS PRIME Validation Report be included in the ITRAC system. We
determined the estimation procedures were not updated to include the issues identified in the IRS
PRIME Validation Report in the ITRAC system. A BSMO official informed us the BSMO
intended to place issues in the ITRAC; however, program changes (due to budget restrictions)
required the IRS to adopt alternative approaches to managing cost and schedule estimation
issues. Without including issues from the IRS PRIME Validation Report in the BSM issues
tracking system, BSMO management has less assurance the risks and issues contained in the
Report’s action plan have been satisfactorily resolved or proper mitigation actions planned.
Effect of Program Changes: Due to changes in program-level responsibility for cost and
schedule estimation, all actions listed in the IRS PRIME Validation Report may not be valid. As
we were completing our audit work, the BSMO was determining which actions were relevant in
the new environment.


Recommendations
Recommendation 2: To ensure adequate documentation on the use of a second cost and
schedule estimation method is received for review, the CIO should develop an alternative way to
clearly inform modernization contractors when the use of a second estimation method is needed
and issue clear guidance requiring the results of using multiple estimation methods to be
explained in the documentation submitted with estimate proposals.
        Management’s Response: The CIO agreed with this recommendation. The IRS will
        obtain a second estimate through either an Independent Government Cost Estimate20 or a


20
  The purpose of an Independent Government Cost Estimate is to provide an independent and realistic estimate that
can be compared with the contractor’s proposed cost.
                                                                                                        Page 11
                    While Improvements Have Been Made, Business Systems
                 Modernization Cost and Schedule Estimation Processes Have Not
                     Always Been Followed and Major Changes Are Planned



        BOE. The BOE under development currently stipulates a modernization contractor must
        provide a description of each method used, along with an explanation of any significant
        variance in the results. Rationale for not validating estimates is also required to ensure
        the criteria are properly considered in the determination.
Recommendation 3: To ensure issues are formally tracked to closure, the CIO should
determine if any remaining issues from the IRS PRIME Validation Report are relevant to the
new environment. If any issues are determined to be relevant, these issues should be
documented and tracked in the ITRAC system.
        Management’s Response: The CIO agreed with this recommendation. The IRS
        stated it has completed an assessment of the IRS PRIME validation report and, due to the
        program changes, determined no relevant issues remained. The IRS plans to produce a
        final report to identify the disposition of all validation report issues.



Cost and Schedule Estimates Show Signs of Improvement; However,
Development and Deployment Variances Have Been Substantial

In October 2002, we reported BSM projects had experienced a $75 million, or 24 percent, cost
increase and were experiencing schedule delays of up to 13 months over initial estimates.21 At
the time, BSMO forecasts were predicting future cost and schedule estimates would be much
closer to the estimates detailed in the expenditure plans,22 and BSMO officials believed cost and
schedule estimates would be more reliable as projects moved from the planning phases to the
Development and Deployment phases of the ELC.
Leading up to our earlier report, both the Treasury Inspector General for Tax Administration
(TIGTA) and the GAO were reporting key management controls, such as cost and schedule
estimation, needed to be improved.23 The GAO added risks associated with building systems
without the requisite management controls were not as severe early in a project’s life cycle when
it is being planned, but they escalate as a project is developed.
To update our cost and schedule estimate trend analysis from October 2002, we reviewed
information presented in all available BSM expenditure plans.24 It is important to note the

21
   Analysis of Business Systems Modernization Cost, Schedule, and Functionality Performance (Reference
Number 2003-20-007, dated October 2002).
22
   The BSMO provides Congress justification to release funds specifically set aside for the BSM effort by submitting
BSM expenditure plans.
23
   Modernization Project Teams Need to Follow Key Systems Development Processes (Reference
Number 2002-20-025, dated November 2001) and Business Systems Modernization: IRS Needs to Better Balance
Management Capacity with System Acquisition Workload (GAO-02-356, dated February 2002).
24
   See Appendix VI for details of our methodology.
                                                                                                          Page 12
                    While Improvements Have Been Made, Business Systems
                 Modernization Cost and Schedule Estimation Processes Have Not
                     Always Been Followed and Major Changes Are Planned



information and conclusions we present are subject to change, as some projects are in progress.
Our results were calculated based upon the latest BSM project estimates and may change if
current estimates are revised in the future.

Cost estimates

Based on the justifications provided by the BSMO in expenditure plans, Congress has released
approximately $1.9 billion to fund contractor activities for the BSM program.25 Overall, active
and deployed BSM projects have varied from original cost estimates contained in the
expenditure plans by over $480 million. This equates to 78 percent more than the estimates
originally provided to Congress.26
To determine if cost variances are becoming more or less severe, we associated each cost
variance on each BSM project segment27 to the expenditure plan that included the original
estimate, as shown in Figure 1.28




25
   See Appendix VII for the BSM funding timeline.
26
   See Appendix VIII for a listing of cost variances by project.
27
   BSM projects are funded in segments (e.g., by fiscal year, by milestone).
28
   During development, projects go through several milestones; therefore, some projects are compared several times.
                                                                                                          Page 13
                                       While Improvements Have Been Made, Business Systems
                                    Modernization Cost and Schedule Estimation Processes Have Not
                                        Always Been Followed and Major Changes Are Planned




 Figure 1: Total Cost Variance Percentage for Each Expenditure Plan Calculated
by Comparing the Original Cost Estimates and the Latest Revised Cost Estimates
      Cost Variance Percentage




                                 120%
                                            100%              104%
                                 100%
                                 80%
                                                                            50%           Cost Variance
                                 60%
                                                                                          Cost Variance Trend
                                 40%
                                                   37%
                                 20%
                                                                      8%          26%
                                  0%
                                           1       2       3       4       5       6
                                        04/1999 03/2000 09/2000 03/2001 10/2001 01/2003
                                                         Expenditure Plan


      Source: TIGTA analysis of BSM expenditure plans.

As shown in Figure 1, cost variances are generally trending downward; however, the trend is not
consistent. There are sharp spikes upward (Expenditure Plans 3 and 5) and downward
(Expenditure Plans 4 and 6). To determine why the trend is not consistent, we reviewed the
variances in Expenditure Plans 3 through 6 in detail.
We determined the inconsistency was due to the projects and their associated life cycle phases
being funded in each expenditure plan. Generally, the expenditure plans that fund major systems
moving into the later phases of the life cycle (Development and Deployment) have higher cost
variances than those mainly funding projects that are early in the life cycle. For example, one of
the first projects for which the IRS requested funds to move into the later life cycle phases was
the Custodial Accounting Project (CAP). The Milestone 4 and 5 CAP variance accounted for
approximately $86 million (70 percent) of the $124 million cost variance in Expenditure Plan 3.
Another example is the e-Services project, which accounted for over one-half of the $136 million
cost variance in Expenditure Plan 5 as the project moved toward Milestones 4 and 5.
Expenditure Plan 4, which had a cost variance of 8 percent, included requests for funds for
8 projects. Only one of the eight requests was for funds for the Development and Deployment
phases. If the one project in its later stages is removed, the cost variance for Expenditure Plan 4
would have shown original estimates were more than revised estimates.




                                                                                                                Page 14
                                     While Improvements Have Been Made, Business Systems
                                  Modernization Cost and Schedule Estimation Processes Have Not
                                      Always Been Followed and Major Changes Are Planned




Schedule estimates

BSM active and deployed projects have varied from original schedule estimates by an average of
18 months.29
To determine if schedule variances are becoming more or less severe, we associated each
schedule variance on each BSM project to the expenditure plan that included the original
estimate. We determined schedule variances peaked at 14 months in 2001 (Expenditure Plan 4)
and have averaged from 10 to 14 months per expenditure plan.

                                                     Figure 2: Schedule Variance by Expenditure Plan


                                                16
                   Schedule Variance (months)




                                                14
                                                12
                                                10
                                                8
                                                6
                                                4
                                                2
                                                0
                                                       2 (03/2000)   3 (09/2000)   4 (03/2001)   5 (10/2001)   6 (01/2003)
                                                                              Expenditure Plan

                  Source: TIGTA analysis of BSM expenditure plans.




29
     See Appendix VIII for a listing of schedule variances by project.
                                                                                                                             Page 15
                   While Improvements Have Been Made, Business Systems
                Modernization Cost and Schedule Estimation Processes Have Not
                    Always Been Followed and Major Changes Are Planned



FY 2004 results

The IRS recently reported FY 2004 was a banner year for meeting cost and schedule estimates.
In response to a recent GAO report,30 the IRS Commissioner stated the IRS revised the cost and
schedule estimates for each project in the fall/winter of 2003. The Commissioner further stated
the IRS, with the exception of one project, had met all revised cost and schedule goals for 2004.
Our analysis of the rebaselined project deliveries confirmed the IRS’ assessment that deployed
project releases were generally within budget and on time, based on estimates from the
May 2004 BSM Expenditure Plan (Plan 7). While the ability to meet short-term goals is a
noteworthy accomplishment, the ability of the BSM program to sustain its FY 2004
accomplishments with projects in earlier phases of the life cycle remains to be seen. Therefore,
we remain cautious about looking forward based on FY 2004 results, due to uncertainties related
to BSM roles and responsibilities and the challenges facing the IRS that could affect future
accomplishments.
Management Actions: The IRS has recently taken steps to limit cost increases and schedule
delays.

Contract and requirements management

We recently reported the IRS has increased use of combined full and partial firm fixed-price task
orders.31 In addition, the IRS is establishing a Requirements Management Office to help avoid
the recurring issues that have negatively affected the BSM program and contributed to additional
project costs and delays.32

BSM Challenges Plan

In response to continuing cost increases and schedule delays, the IRS and the PRIME contractor
initiated four studies in mid-2003 to help identify the root causes of the problems hindering the
BSM effort. To address the results of these studies, the IRS and the PRIME contractor




30
   Business Systems Modernization: IRS’s Fiscal Year 2004 Expenditure Plan (GAO-05-46, dated November 2004).
31
   While Many Improvements Have Been Made, Continued Focus Is Needed to Improve Contract Negotiations and
Fully Realize the Potential of Performance-Based Contracting (Reference Number 2005-20-083, dated May 2005).
32
   The Modernization Program Is Establishing a Requirements Management Office to Address Requirements
Development and Management Problems (Reference Number 2005-20-023, dated January 2005).
                                                                                                   Page 16
                    While Improvements Have Been Made, Business Systems
                 Modernization Cost and Schedule Estimation Processes Have Not
                     Always Been Followed and Major Changes Are Planned



developed a 48-point action plan (known as the BSM Challenges Plan)33 designed to address the
BSM-related study recommendations. As part of the BSM Challenges Plan, the ACIO, BSM,
reported the IRS has hired three executives from outside the IRS that have a proven record of
successfully managing and delivering large, complex projects and systems.
In 2004, the ACIO, Modernization Management,34 met with and interviewed a number of
individuals in the IRS business units, the TIGTA, the GAO, and the Office of Management and
Budget and reviewed the studies, as well as various reports prepared by the TIGTA and the
GAO. As a result, the ACIO, Modernization Management, determined the key barriers to
success in the BSM program and created a plan to address these barriers. This plan includes
high-level key focus areas and detailed high-priority initiatives to deal with the root causes that
are creating the barriers. The highest priority initiatives include actions to develop the right set
of required project management skills, including schedule and earned value management35
analysis.

Expenditure plan changes

At the beginning of our review, the Deputy ACIO, Business Integration, asked us to ensure our
variances were consistent with the variances agreed to by the GAO and the BSMO in FY 2004.
The methodology we used was very similar to the methodology used by the GAO.36
After our review was complete, BSMO officials stated they had shifted from a concern about
GAO and TIGTA methodologies being consistent to a concern that the prevailing variance
methodology did not accurately depict variances within the BSM program. The BSMO stated it
had been in discussions with the GAO to revise its methodology for computing variances37 and
would be revising future expenditure plans to clarify the difference between estimates and the
amount budgeted for a project segment.
The analysis presented in this report was based on the prevailing methodology for calculating
variances, as agreed to at the beginning of our review.38 We agreed we would take part in future

33
   The BSM Challenges Plan originally consisted of 46 action items. The IRS added two action items based on the
results of an IRS Oversight Board report: Independent Analysis of IRS Business Systems Modernization, dated
December 2003.
34
   In the fall of 2004, the ACIO, Modernization Management, became the new ACIO, BSM.
35
   Earned value management involves measuring actual cost and work accomplished against the budgeted cost and
planned work scheduled. Variances are analyzed for decision making.
36
   See Appendix VI for details on our methodology.
37
   Areas of concern include project risk adjustments, filing season changes, baseline changes, and accounting for
carryover funds. The filing season is the period from January through mid-April when most individual income tax
returns are filed.
38
   See Appendix VI, which shows our analysis is, with minor exceptions, very similar to the analysis the GAO
conducts.

                                                                                                         Page 17
                 While Improvements Have Been Made, Business Systems
              Modernization Cost and Schedule Estimation Processes Have Not
                  Always Been Followed and Major Changes Are Planned



discussions concerning how best to measure the health of the BSM program. As changes are
made, these results will be reflected in future audit reports.
As a result of these and other actions being taken by the IRS, we are making no additional
recommendations at this time to reduce cost and schedule variances.




                                                                                         Page 18
                   While Improvements Have Been Made, Business Systems
                Modernization Cost and Schedule Estimation Processes Have Not
                    Always Been Followed and Major Changes Are Planned



                                                                                            Appendix I

        Detailed Objectives, Scope, and Methodology

The overall objective of this review was to determine the status and effectiveness of corrective
actions implemented in response to our prior audit report1 on the cost and schedule estimating
process for the Business Systems Modernization (BSM) program. In addition, we followed up
on another prior report2 to update trends in the BSM program’s accomplishments against initial
cost and schedule estimates.
To accomplish our objectives, we:
I.      Determined whether corrective actions had been implemented based on recommendations
        in our prior report on the cost and schedule estimation process.
        A. Determined whether the Internal Revenue Service (IRS) had ensured all contractors
           followed PRIME contractor3 procedures for preparing cost and schedule estimates
           and provided data for inclusion in the historical database.
        B. Determined whether the PRIME contractor documented the process for cost and
           schedule estimation model calibrations.4
        C. Determined whether the PRIME contractor revised the cost and schedule estimation
           guidebook and applicable Enterprise Life Cycle5 references to provide details of
           specific documentation required to support estimates and whether the BSM Office
           (BSMO) ensured guidance was clarified regarding when a second method is required
           for preparing estimates.
            1. Determined whether the guidance in the PRIME Estimation Guidebook was clear
               as to when a second estimation method was required and whether the Guidebook
               stated what documentation was required to support estimates.




1
  The Cost and Schedule Estimation Process for the Business Systems Modernization Program Has Been Improved,
but Additional Actions Should Be Taken (Reference Number 2003-20-219, dated September 2003).
2
  Analysis of Business Systems Modernization Cost, Schedule, and Functionality Performance (Reference
Number 2003-20-007, dated October 2002).
3
  The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
information technology.
4
  Calibration involves reviewing and adjusting estimation models to ensure they represent the PRIME
contractor’s specific cost and product history.
5
  See Appendix V for an overview of the Enterprise Life Cycle.

                                                                                                    Page 19
                   While Improvements Have Been Made, Business Systems
                Modernization Cost and Schedule Estimation Processes Have Not
                    Always Been Followed and Major Changes Are Planned



            2. For the 3 estimate proposal reviews completed between December 2003 and
               October 2004, we judgmentally selected and reviewed 36 (24 percent) of the
               151 comments the BSMO review teams made to determine what documentation
               was noted as missing. We used a judgmental sample because we did not plan to
               project the results.
        D. Determined whether the IRS had ensured the Software Engineering Institute6 would
           conduct an independent review of the cost and schedule estimation system once the
           initial validation was completed and policies and procedures were fully implemented.
        E. Determined whether the BSMO had ensured draft procedures were updated to include
           guidance on:
            1. Including all issues identified during the cost and schedule estimation system
               validation and estimate reviews in the Item Tracking Reporting and Control
               (ITRAC)7 system.
            2. Providing cost and schedule estimation system validation and estimate review
               reports to the IRS Office of Procurement.
            3. Trending estimate review results.
II.     Determined the trends in the BSM program’s ability to meet initial cost and schedule
        estimates.
        A. Obtained and analyzed all expenditure plans.
        B. Obtained revised estimates for all the identified projects and program-level initiatives
           in the expenditure plans.
        C. Compared the information in Steps II.A. and B. to identify the variances between the
           initial and revised estimates for each project and program-level initiative.
        D. Performed analyses of information developed in Step II.C.




6
  This is a Federally Funded Research and Development Center whose purpose is to help others make measured
improvements in their software engineering capabilities.
7
  The BSM Risk Management Plan requires that all modernization organizations use the ITRAC database to record
and update the status of issues.

                                                                                                      Page 20
                 While Improvements Have Been Made, Business Systems
              Modernization Cost and Schedule Estimation Processes Have Not
                  Always Been Followed and Major Changes Are Planned



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary V. Hinkle, Director
Troy D. Paterson, Audit Manager
Wallace C. Sims, Lead Auditor
James A. Douglas, Senior Auditor
Michael A. Garcia, Senior Auditor




                                                                                         Page 21
                While Improvements Have Been Made, Business Systems
             Modernization Cost and Schedule Estimation Processes Have Not
                 Always Been Followed and Major Changes Are Planned



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
Deputy Associate Chief Information Officer, Business Integration OS:CIO:B:BI
Deputy Associate Chief Information Officer, Program Management OS:CIO:B:PM
Deputy Associate Chief Information Officer, Systems Integration OS:CIO:B:SI
Director, Stakeholder Management OS:CIO:SM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
       Manager, Program Oversight Office OS:CIO:SM:PO




                                                                                  Page 22
                    While Improvements Have Been Made, Business Systems
                 Modernization Cost and Schedule Estimation Processes Have Not
                     Always Been Followed and Major Changes Are Planned



                                                                                               Appendix IV

            Business Systems Modernization Office
          Cost and Schedule Estimate Review Trends

The Business Systems Modernization Office (BSMO) reviews cost and schedule estimates and
associated documentation received from modernization contractors against the Software
Engineering Institute’s (SEI) 1 requirements for reliable estimating processes. As recommended
in a prior Treasury Inspector General for Tax Administration report,2 the BSMO trends this
information to determine if compliance against cost and schedule estimation procedures is
improving.
Figure 1 shows trends from the BSMO’s reviews of modernization contractor cost and schedule
estimates. Estimates with a score of 0 thru 2 generally were not in compliance with SEI
requirements. Trends show no score higher than 2.80, indicating very little sign of improvement
in compliance with procedures and processes over the 2-year period ending December 2004. In
January 2005, program-level cost and schedule estimation processes became the responsibility of
the BSMO, instead of the PRIME contractor.3




1
  The SEI is a Federally Funded Research and Development Center whose purpose is to help others make measured
improvements in their software engineering capabilities.
2
  The Cost and Schedule Estimation Process for the Business Systems Modernization Program Has Been Improved,
but Additional Actions Should Be Taken (Reference Number 2003-20-219, dated September 2003).
3
  The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading technology
companies brought together to assist with the Internal Revenue Service’s efforts to modernize its computer systems
and related information technology.

                                                                                                          Page 23
                                   While Improvements Have Been Made, Business Systems
                                Modernization Cost and Schedule Estimation Processes Have Not
                                    Always Been Followed and Major Changes Are Planned




    Figure 1: Trends in Contractor Estimates Provided to the BSMO for Review


                                    4.00
             Compliance Score




                                    3.50
                                    3.00
                                    2.50
                                    2.00
                                    1.50
                                    1.00
                                    0.50
                                    0.00
                                                            )




                                                            )


                                                            )
                                                            )




                                                            )




                                                            )




                                                            )
                                                            )
                                                          03




                                                         03


                                                         03


                                                         03




                                                         04
                                                         02




                                                         03




                                                         04
                                                       20
                                                       20




                                                       20




                                                       20




                                                       20
                                                      20


                                                      20




                                                      20
                                                    1/
                                                   2/




                                                   8/




                                                   0/




                                                   2/
                                                    9/


                                                    0/




                                                   6/
                                                 (0




                                                 (0


                                                 (1
                                                 (1




                                                 (0




                                                 (1


                                                 (0


                                                 (1
                                             es




                                             eF
                                   AP




                                             AP




                                              S




                                              S
                                              SI


                                              BI


                                            IF




                                            IF
                                           ic




                                          M
                                  C




                                          C
                                         rv
                                       Se
                                    e-




                                                Project and Estimate Proposal Date

Source: BSMO trending of modernization contractor cost and schedule estimates from December 2002 through
December 2004. See Appendix IX for full project names and descriptions. SI and BI stand for Systems Integration
and Business Integration, respectively. Both are program-level (nonproject) efforts.




                                                                                                        Page 24
                     While Improvements Have Been Made, Business Systems
                  Modernization Cost and Schedule Estimation Processes Have Not
                      Always Been Followed and Major Changes Are Planned



                                                                                                   Appendix V

                         Enterprise Life Cycle Overview

The Enterprise Life Cycle (ELC) defines the processes, products, techniques, roles,
responsibilities, policies, procedures, and standards associated with planning, executing, and
managing business change. It includes redesign of business processes; transformation of the
organization; and development, integration, deployment, and maintenance of the related
information technology applications and infrastructure. Its immediate focus is the Internal
Revenue Service (IRS) Business Systems Modernization (BSM) program. Both the IRS and the
PRIME contractor1 must follow the ELC in developing/acquiring business solutions for
modernization projects.
The ELC framework is a flexible and adaptable structure within which one plans, executes, and
integrates business change. The ELC process layer was created principally from the Computer
Sciences Corporation’s Catalyst® methodology.2 It is intended to improve the acquisition, use,
and management of information technology within the IRS; facilitate management of large-scale
business change; and enhance the methods of decision making and information sharing. Other
components and extensions were added as needed to meet the specific needs of the IRS BSM
program.


ELC Processes

A process is an ordered, interdependent set of activities established to accomplish a specific
purpose. Processes help to define what work needs to be performed. The ELC methodology
includes two major groups of processes:
Life-Cycle Processes, which are organized into phases and subphases and address all domains of
   business change.
Management Processes, which are organized into management areas and operate across the
  entire life cycle.




1
  The PRIME contractor is the Computer Sciences Corporation (CSC), which heads an alliance of leading
technology companies brought together to assist with the IRS’ efforts to modernize its computer systems and related
information technology.
2
  The IRS has acquired a perpetual license to Catalyst® as part of the PRIME contract, subject to certain restrictions.
The license includes rights to all enhancements made to Catalyst® by the CSC during the contract period.

                                                                                                              Page 25
                                       While Improvements Have Been Made, Business Systems
                                    Modernization Cost and Schedule Estimation Processes Have Not
                                        Always Been Followed and Major Changes Are Planned




                                                      Enterprise Life-Cycle Processes



                                     IRS Governance and Investment Decision Management
  Management




                                              Program Management and Project Management

                                     Architectural Engineering / Development Coordination

                                                      Management Support Processes


                                                                                                   Business Processes




                                                                                                                            Operations & Support
                                                                                                           Applications
                Vision & Strategy




                                                       Development
                                       Architecture




                                                                                   Deployment
                                                                     Integration
  Life Cycle




                                                                                                                   Data


                                                                                                Organizational Change


                                                                                                Technical Infrastructure


                                                                                                Facilities Infrastructure


Source: ELC Guide, Page 2-16.




Life-Cycle Processes

The life-cycle processes of the ELC are divided into six phases, as described below:
         •     Vision and Strategy - This phase establishes the overall direction and priorities for
               business change for the enterprise. It also identifies and prioritizes the business or system
               areas for further analysis.

                                                                                                                                               Page 26
                 While Improvements Have Been Made, Business Systems
              Modernization Cost and Schedule Estimation Processes Have Not
                  Always Been Followed and Major Changes Are Planned



   •   Architecture - This phase establishes the concept/vision, requirements, and design for a
       particular business area or target system. It also defines the releases for the business area
       or system.
   •   Development - This phase includes the analysis, design, acquisition, modification,
       construction, and testing of the components of a business solution. This phase also
       includes routine planned maintenance of applications.
   •   Integration - This phase includes the integration, testing, piloting, and acceptance of a
       release. In this phase, the integration team brings together individual work packages of
       solution components developed or acquired separately during the Development phase.
       Application and technical infrastructure components are tested to determine if they
       interact properly. If appropriate, the team conducts a pilot to ensure all elements of the
       business solution work together.
   •   Deployment - This phase includes preparation of a release for deployment and actual
       deployment of the release to the deployment sites. During this phase, the deployment
       team puts the solution release into operation at target sites.
   •   Operations and Support - This phase addresses the ongoing operations and support of
       the system. It begins after the business processes and system(s) have been installed and
       have begun performing business functions. It encompasses all of the operations and
       support processes necessary to deliver the services associated with managing all or part
       of a computing environment.
       The Operations and Support phase includes the scheduled activities, such as planned
       maintenance, systems backup, and production output, as well as the nonscheduled
       activities, such as problem resolution and service request delivery, including emergency
       unplanned maintenance of applications. It also includes the support processes required to
       keep the system up and running at the contractually specified level.


Management Processes

Besides the life-cycle processes, the ELC also addresses the various management areas at the
process level. The management areas include:
   •   IRS Governance and Investment Decision Management - This area is responsible for
       managing the overall direction of the IRS, determining where to invest, and managing the
       investments over time.
   •   Program Management and Project Management - This area is responsible for
       organizing, planning, directing, and controlling the activities within the program and its


                                                                                            Page 27
                  While Improvements Have Been Made, Business Systems
               Modernization Cost and Schedule Estimation Processes Have Not
                   Always Been Followed and Major Changes Are Planned



       subordinate projects to achieve the objectives of the program and deliver the expected
       business results.
   •   Architectural Engineering/Development Coordination - This area is responsible for
       managing the technical aspects of coordination across projects and disciplines, such as
       managing interfaces, controlling architectural changes, ensuring architectural compliance,
       maintaining standards, and resolving issues.
   •   Management Support Processes - This area includes common management processes,
       such as quality management and configuration management that operate across multiple
       levels of management.


Milestones

The ELC establishes a set of repeatable processes and a system of milestones, checkpoints, and
reviews that reduce the risks of system development, accelerate the delivery of business
solutions, and ensure alignment with the overall business strategy. The ELC defines a series of
milestones in the life-cycle processes. Milestones provide for “go/no-go” decision points in the
project and are sometimes associated with funding approval to proceed. They occur at natural
breaks in the process where there is new information regarding costs, benefits, and risks and
where executive authority is necessary for next phase expenditures.
There are five milestones during the project life cycle:
   •   Milestone 1 - Business Vision and Case for Action. In the activities leading up to
       Milestone 1, executive leadership identifies the direction and priorities for IRS business
       change. These guide which business areas and system development projects are funded
       for further analysis. The primary decision at Milestone 1 is to select BSM projects based
       on both the enterprise-level Vision and Strategy and the enterprise architecture.
   •   Milestone 2 - Business Systems Concept and Preliminary Business Case. The
       activities leading up to Milestone 2 establish the project concept, including requirements
       and design elements, as a solution for a specific business area or business system. A
       preliminary business case is also produced. The primary decision at Milestone 2 is to
       approve the solution/system concept and associated plans for a modernization initiative
       and to authorize funding for that solution.




                                                                                          Page 28
              While Improvements Have Been Made, Business Systems
           Modernization Cost and Schedule Estimation Processes Have Not
               Always Been Followed and Major Changes Are Planned



•   Milestone 3 - Business Systems Design and Baseline Business Case. In the activities
    leading up to Milestone 3, the major components of the business solution are analyzed
    and designed. A baseline business case is also produced. The primary decision at
    Milestone 3 is to accept the logical system design and associated plans and to authorize
    funding for development, test, and (if chosen) pilot of that solution.
•   Milestone 4 - Business Systems Development and Enterprise Deployment Decision.
    In the activities leading up to Milestone 4, the business solution is built. The Milestone 4
    activities are separated by two checkpoints. Activities leading up to Milestone 4A
    involve further requirements definition, production of the system’s physical design, and
    determination of the applicability of fixed-price contracting to complete system
    development and deployment. To achieve Milestone 4B, the system is integrated with
    other business systems and tested, piloted (usually), and prepared for deployment. The
    primary decision at Milestone 4B is to authorize the release for enterprise-wide
    deployment and commit the necessary resources.
•   Milestone 5 - Business Systems Deployment and Postdeployment Evaluation. In the
    activities leading up to Milestone 5, the business solution is fully deployed, including
    delivery of training on use and maintenance. The primary decision at Milestone 5 is to
    authorize the release of performance-based compensation based on actual, measured
    performance of the business system.




                                                                                        Page 29
                    While Improvements Have Been Made, Business Systems
                 Modernization Cost and Schedule Estimation Processes Have Not
                     Always Been Followed and Major Changes Are Planned



                                                                                             Appendix VI

    Treasury Inspector General for Tax Administration
        Cost and Schedule Variance Methodology

To determine how the Internal Revenue Service (IRS) and its contractors have performed against
original cost and schedule estimates included in expenditure plans, we compared the original cost
and schedule estimates listed in expenditure plans to actual or revised cost and schedule
estimates included in the Automated Financial System (AFS)1 or future expenditure plans. For
example, if the IRS estimates it will cost $10 million for a project to exit a particular milestone
and later revises the estimate to $15 million, we would report this as a $5 million cost variance.
Similarly, if the IRS estimates it will exit a particular milestone in March 2003 and later revises
the estimate to September 2003, we would report this as a 6-month schedule variance.
At the beginning of our review, the Deputy Associate Chief Information Officer, Business
Integration, asked that we ensure our cost variances were consistent with cost variances agreed to
by the Government Accountability Office (GAO) and the Business Systems Modernization
Office (BSMO) in Fiscal Year 2004. We reviewed the agreed upon variances and found the
GAO used a methodology very similar to ours. However, there were some slight deviations
between our methodologies. In some cases, we revised our analysis to match GAO analyses. In
other cases, we decided to use our own methodology. In summary, we determined the
differences to be minimal. Figure 1 provides a listing of differences between the GAO/BSMO
agreed upon cost variances and the cost variances we calculated. An explanation of the reason
for each difference is provided following Figure 1.




1
 The AFS is a computer-based financial accounting system used by the IRS to track appropriations and
expenditures.

                                                                                                       Page 30
                    While Improvements Have Been Made, Business Systems
                 Modernization Cost and Schedule Estimation Processes Have Not
                     Always Been Followed and Major Changes Are Planned



        Figure 1: Listing of Differences Between GAO/BSMO Agreed Upon Cost
       Variances and Treasury Inspector General for Tax Administration (TIGTA)
                                      Cost Variances

                            GAO/BSMO Agreed Upon
       Project Name2            Cost Variance               TIGTA Cost Variance           Explanation Code3
CADE BRMS4                         $11,902,000                    $11,903,000                      1
CADE Release 1                     $118,129,000                  $114,728,912                   1 and 2
CAP Release 1                      $91,789,000                    $91,309,097                      2
CC01                               $14,562,000                    $14,024,163                      2
CRM (Exam)                          ($721,000)                      $79,821                        2
e-Services                         $102,271,000                  $102,468,647                      2
HR-Connect                           $200,000                     ($145,810)                       2
STIR                                $8,450,000                    $21,551,788                   2 and 3

Source: Document provided by the Deputy Associate Chief Information Officer, Business Integration, showing
GAO/BSMO agreed upon cost variances and TIGTA analysis.

Explanation Codes
1. Immaterial amount – No explanation was obtained for amounts of an immaterial nature.
2. Use of the AFS to capture actual results – Expenditure Plan 2 did not report detailed
   results of spending against Expenditure Plan 1. Therefore, we requested the BSMO to
   provide us with the actual expenditures from the AFS. The GAO used information from an
   interim expenditure plan request in late 1999. As the figures we obtained depicted actual
   costs, we decided to use the actual AFS figures in our analysis. The net effect is negligible.
3. Capture of fiscal year activities – The GAO/BSMO agreed upon cost variances did not
   track STIR project variances when the STIR project went from requesting funds based on
   milestones to requesting funds based on fiscal year.5 The IRS initially requested funding for
   the STIR project on a milestone basis. However, the IRS later revised its position and
   requested funding for the STIR project on a fiscal year basis.




2
  See Appendix IX for full project names and descriptions.
3
  Full explanations of the reasons for differences between GAO/BSMO cost variances and TIGTA calculated cost
variances follow the end of this Figure.
4
  The Business Rules Management Solution (BRMS) is a key factor required to facilitate the success of the
Customer Account Data Engine (CADE).
5
  See Appendix V for an overview of the Enterprise Life Cycle.

                                                                                                       Page 31
                                        While Improvements Have Been Made, Business Systems
                                     Modernization Cost and Schedule Estimation Processes Have Not
                                         Always Been Followed and Major Changes Are Planned



                                                                                                                                     Appendix VII

Business Systems Modernization Funding Timeline

Figures 1 and 2 provide a graphical and tabular depiction of the funding requested by the Internal
Revenue Service Business Systems Modernization (BSM) program through expenditure plans.

                                        Figure 1: BSM Program Funding Timeline Graph
          Funding (in thousands) b




                                     $450                                                                    $391 $378 $388
                                     $400
                                     $350
                                     $300
                                     $250                                              $200                                                 $203
                                     $200                        $148                             $128
                                     $150
                                     $100
                                            $35       $33                   $33
                                      $50
                                       $0
                                            04/1999

                                                       12/1999

                                                                  03/2000

                                                                             08/2000

                                                                                        09/2000

                                                                                                   03/2001

                                                                                                              10/2001

                                                                                                                        01/2003

                                                                                                                                  05/2004

                                                                                                                                             02/2005
                                            #1        INT.        #2        INT.        #3         #4         #5        #6        #7         #8
                                                       #1                    #2
                                                                                 Expenditure Plan


          Source: BSM expenditure plans. NOTE: INT. stands for interim.




                                                                                                                                                       Page 32
                   While Improvements Have Been Made, Business Systems
                Modernization Cost and Schedule Estimation Processes Have Not
                    Always Been Followed and Major Changes Are Planned




                      Figure 2: BSM Program Funding Timeline Table

     EXPENDITURE PLAN                            DATE            PLAN AMOUNT
EXPENDITURE PLAN #1              April 1999                       $ 35 million
INTERIM PLAN #1                  December 1999                    $ 33 million
EXPENDITURE PLAN #2              March 2000                       $148 million
INTERIM PLAN #2                  August 2000                      $ 33 million
EXPENDITURE PLAN #3              September 2000                   $200 million
EXPENDITURE PLAN #4              March 2001                       $128 million
EXPENDITURE PLAN #5              October 2001                     $391 million
EXPENDITURE PLAN #6 (Initial     October 2002 and January 2003    $378 million
and Revised Versions)
EXPENDITURE PLAN #7 (Initial     September 2003 and May 2004      $388 million
and Revised Versions)
EXPENDITURE PLAN #8              February 2005                    $203 million

                         TOTAL AMOUNT                             $1.937 billion

Source: BSM expenditure plans.




                                                                                   Page 33
                    While Improvements Have Been Made, Business Systems
                 Modernization Cost and Schedule Estimation Processes Have Not
                     Always Been Followed and Major Changes Are Planned



                                                                                             Appendix VIII

    Business Systems Modernization Project Cost and
                  Schedule Variances

Figure 1 presents a summation of cost and schedule variances reported in Business Systems
Modernization (BSM) Expenditure Plans 1 through 7 by project release for active or deployed
projects.1

                        Figure 1: Active or Deployed Projects -
                   BSM Cost and Schedule Variances by Project Release

                                                                                           Schedule
                                Planned               Actual/              Cost            Variance
            Project2   Release    Cost              Revised Cost         Variance        (in months)
          CADE            1    $64,645,322           $179,374,234       $114,728,912          58
          CADE         BRMS3 $26,200,000              $38,103,000        $11,903,000          18
          CAP             1    $47,640,903           $138,950,000        $91,309,097          36
          CC01            1    $46,199,934            $60,224,097         14,024,163          26
          CCS             1    $20,000,000            $20,000,000                 $0          15
          CRM             1    $10,183,425            $10,263,246            $79,821          10
          (Exam)
          e-Services       1      $46,548,537        $149,017,184       $102,468,647          28
          ESM              1      $24,558,042         $32,753,327         $8,195,285          19
          F&PC             1      $43,276,000         $45,717,000         $2,441,000           7
          HR-              1      $10,579,130         $10,433,320         ($145,810)           0
          Connect
          IFS              1      $99,870,000        $173,580,000         $73,710,000         30
          IRFOF            1      $16,509,000         $30,558,000         $14,049,000         36
          MeF              1      $29,246,000         $50,303,000         $21,057,000          7
          MeF              2      $16,325,000         $16,325,000                  $0          6
          MeF              3      $21,875,000         $27,175,000          $5,300,000          2
          MeF              4       $8,000,000          $8,000,000                  $0          9


1
  See Appendix VI for the methodology we used to compute variances.
2
  See Appendix IX for full project names and descriptions.
3
  The Business Rules Management Solution (BRMS) is a key factor required to facilitate the success of the
Customer Account Data Engine (CADE).

                                                                                                            Page 34
                      While Improvements Have Been Made, Business Systems
                   Modernization Cost and Schedule Estimation Processes Have Not
                       Always Been Followed and Major Changes Are Planned



                                                                                          Schedule
                                    Planned            Actual/              Cost          Variance
             Project2 Release         Cost          Revised Cost          Variance      (in months)
            STIR            1      $80,924,133       $102,475,921         $21,551,788        6
            Totals:               $612,580,426      $1,093,252,329       $480,671,903
            Total Cost Variance Percentage:                                      78%
            Average Schedule Variance:                                                        18

            Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of BSM expenditure
             plans.

Figure 2 presents a summation of cost and schedule variances reported in BSM Expenditure
Plans 1 through 7 by project release for cancelled or deferred projects.4


                             Figure 2: Cancelled or Deferred Projects -
                              BSM Cost Variances by Project Release

                                                               Actual/            Cost
                          Project5    Release Planned Cost Revised Cost         Variance
                       CADDI             1           $870,425  $2,361,823        $1,491,398
                       CADE              2        $38,400,000 $26,450,000     ($11,950,000)
                       CADE              3         $9,779,000          $0      ($9,779,000)
                       CAM               1        $36,629,000 $15,452,000     ($21,177,000)
                       CAP               2        $34,200,000  $8,277,000     ($25,923,000)
                       CRM (Core)        1           $870,425  $2,216,401        $1,345,976
                       EDW               2         $8,500,000  $6,950,000      ($1,550,000)
                       RC                1         $6,022,000          $0      ($6,022,000)
                       TE                1         $2,517,000          $0      ($2,517,000)
                       TESP              1        $16,763,070 $16,391,173        ($371,897)
                       WM                1         $2,461,000  $1,130,000      ($1,331,000)
                       Totals:                   $157,011,920 $79,228,397     ($77,783,523)
                       Total Cost Variance Percentage:                                -50%

                      Source: TIGTA analysis of BSM expenditure plans.




4
    See Appendix VI for the methodology we used to compute variances.
5
    See Appendix IX for full project names and descriptions.

                                                                                                       Page 35
                      While Improvements Have Been Made, Business Systems
                   Modernization Cost and Schedule Estimation Processes Have Not
                       Always Been Followed and Major Changes Are Planned



Figure 3 presents a summation of cost and schedule variances reported in BSM Expenditure
Plans 1 through 7 by project release for projects funded on a Fiscal Year basis.6


                                 Figure 3: Fiscal Year Projects -
                              BSM Cost Variances by Project Release

                                                                Actual/         Cost
                          Project7    Release Planned Cost Revised Cost      Variance
                       DITE              1        $58,803,000 $64,622,000      $5,819,000
                       EITE              1         $6,051,000   $3,282,000   ($2,769,000)
                       ISS               1       $245,477,000 $245,496,000        $19,000
                       MDA               1         $3,000,000   $3,000,000             $0
                       SDL               1         $5,520,000   $3,698,965   ($1,821,035)
                       VDE               1        $12,795,000 $16,947,456      $4,152,456
                       Totals:                   $331,646,000 $337,046,421     $5,400,421
                       Total Cost Variance Percentage:                                2%

                      Source: TIGTA analysis of BSM expenditure plans.




6
    See Appendix VI for the methodology we used to compute variances.
7
    See Appendix IX for full project names and descriptions.

                                                                                            Page 36
                     While Improvements Have Been Made, Business Systems
                  Modernization Cost and Schedule Estimation Processes Have Not
                      Always Been Followed and Major Changes Are Planned



                                                                                                  Appendix IX

                      Business Systems Modernization
                            Project Descriptions

The following is a list of Business Systems Modernization projects.1
Correspondence and Document on Demand Imaging (CADDI) – The CADDI was to image
taxpayer paper correspondence to provide more efficient customer service and case management.
Collection Contract Support (CCS) – The CCS will provide support to enable private
collection agencies to supplement the Internal Revenue Service’s (IRS) internal collection staff.
The CCS project is now part of the Filing and Payment Compliance project.
Custodial Accounting Project (CAP) – The CAP will be a single, integrated data repository of
taxpayer account information, integrated with the general ledger2 and accessible for management
analysis and reporting. The first release of the CAP will extract taxpayer account data from the
Individual Master File (IMF) for the Taxpayer Account Subledger.3
Customer Account Data Engine (CADE) – The CADE is the foundation for managing
taxpayer accounts in the IRS modernization plan. It will consist of databases and related
applications that will replace the IRS’ existing Master File processing systems and will include
applications for daily posting, settlement, maintenance, refund processing, and issue detection
for taxpayer tax account and return data.
Customer Account Management (CAM) – The CAM will deliver an enterprise solution to
support access to tax account data, contact management, case management, outbound
correspondence management, and workflow management.
Customer Communications (CC) – The CC project has improved customer service by
increasing the capacity of the toll-free telephone system and providing the ability to route
taxpayers’ calls to the appropriate IRS employees.
Customer Relationship Management (CRM) Core – The CRM (Core) project was to provide
central, shared, electronic case folders for case management.


1
  See Appendix VIII for the current status of each project (active or deployed, cancelled or deferred, or fiscal year
project).
2
  A general ledger is a set of accounts used to summarize an organization’s financial transactions by transaction type
(e.g., cash receipts, accounts receivable, or rental expenses).
3
  The IMF is the IRS database that maintains transactions or records of individual tax accounts. The Taxpayer
Account Subledger will be an integrated data repository of taxpayer account information containing detailed
taxpayer account history and unpaid assessment information.

                                                                                                             Page 37
                       While Improvements Have Been Made, Business Systems
                    Modernization Cost and Schedule Estimation Processes Have Not
                        Always Been Followed and Major Changes Are Planned



Customer Relationship Management (CRM) Exam – The CRM Exam project provides a
commercial off-the-shelf software solution to Large and Mid-Size Business Division revenue
agents, which will allow them to accurately compute complex corporate transactions.
Development, Integration, and Testing Environments (DITE) – The DITE is a consolidated
administrative and oversight function for three related BSM infrastructure support environments:
the Solutions Development Laboratory, Virtual Development Environment, and Enterprise
Integration and Test Environment.
e-Services – The e-Services project provides a set of web-based business products as incentives
to third parties to increase electronic filing, in addition to providing electronic customer account
management capabilities to all businesses, individuals, and other customers.
Enterprise Integration and Test Environment (EITE) – The EITE provides a comprehensive
integration and testing environment to support integration and testing of components from
multiple projects.
Enterprise Data Warehouse (EDW) – The EDW will provide the single, integrated data
repository of payment/deposit, taxpayer account/return and case information, fully integrated
with the general ledger.
Enterprise Systems Management (ESM) – The ESM project was designed to improve the
availability and performance of IRS modernized information technology by providing
management capabilities for the computer systems and networks.4 These capabilities include
monitoring of all IRS computer systems and networks to ensure they are consistently available to
the employees relying on them and the consolidation of 19 help desks throughout the IRS into a
single help desk to better serve the users of the systems and networks.
Filing and Payment Compliance (F&PC) – The F&PC project will provide support for
detecting, scoring, and working nonfiler cases (filing compliance) and delinquency cases
(payment compliance).
Human Resources (HR)-Connect – The HR-Connect system provides the IRS with a single,
integrated source of workforce data.
Infrastructure Shared Services (ISS) – The ISS program’s goal is to deliver a fully integrated
shared information technology infrastructure to include hardware, software, shared applications,
data, telecommunications, security, and an enterprise approach to systems and operations
management.
Integrated Financial System (IFS) – The IFS is intended to address administrative financial
management weaknesses. The first release of the IFS will include the Accounts Payable,
Accounts Receivable, General Ledger, Budget Execution, Cost Management, and Financial


4
    The ESM project is now a part of the Infrastructure Shared Services program.

                                                                                             Page 38
                       While Improvements Have Been Made, Business Systems
                    Modernization Cost and Schedule Estimation Processes Have Not
                        Always Been Followed and Major Changes Are Planned



Reporting activities. A future IFS release will be needed to fully resolve all administrative
financial management weaknesses.
Internet Refund/Fact of Filing (IRFOF) – The IRFOF project improves customer self-service
by providing instant refund status information and instructions for resolving refund problems to
taxpayers with Internet access.
Modernized Data Access (MDA) – The MDA provides a single integrated approach and
software for accessing current processing environment data across the IRS and builds key data
infrastructure components for all modernization projects to share.
Modernized e-File (MeF) – The MeF project develops the modernized, web-based platform for
filing approximately 330 IRS forms electronically, beginning with the U.S. Corporation Income
Tax Return (Form 1120), U.S. Income Tax Return for an S Corporation (Form 1120S), and
Return of Organization Exempt From Income Tax (Form 990). The project serves to streamline
filing processes and reduce the costs associated with a paper-based process.
Reporting Compliance (RC) – The RC project was to provide all applicable employees with
expanded functionality, including accurate and consistent tax computations to support reporting
compliance activities across all taxpayer segments and the necessary forms and reports
generation.
Security and Technology Infrastructure Release (STIR) – The STIR project is designed to
provide a secure technical infrastructure to support and enable the delivery of the IRS’
modernized business systems.5
Solutions Development Laboratory (SDL) – The SDL provides an environment that permits
the rapid installation and configuration of proposed or potential systems solutions and provides
the flexibility to scale and respond to multiple, concurrent projects.
Taxpayer Education (TE) – The TE project was to integrate and leverage third-party resources,
such as practitioners and professional organizations, to deliver targeted education material
designed to improve compliance and understanding of tax laws.
Telecommunications Enterprise Strategic Program (TESP) – The TESP was to define
modernization telecommunications requirements and coordinate to meet those requirements.
Virtual Development Environment (VDE) – The VDE provides a software development
environment enabling geographically distributed projects and developers access to standardized
tools, information, and services.



5
    The STIR is now a part of the Infrastructure Shared Services program.




                                                                                            Page 39
                 While Improvements Have Been Made, Business Systems
              Modernization Cost and Schedule Estimation Processes Have Not
                  Always Been Followed and Major Changes Are Planned



Work Management (WM) – The WM project will select and integrate software applications to
improve the IRS’ ability to allocate staffing resources and track workload more effectively.




                                                                                      Page 40
      While Improvements Have Been Made, Business Systems
   Modernization Cost and Schedule Estimation Processes Have Not
       Always Been Followed and Major Changes Are Planned



                                                    Appendix X

Management’s Response to the Draft Report




                                                          Page 41
   While Improvements Have Been Made, Business Systems
Modernization Cost and Schedule Estimation Processes Have Not
    Always Been Followed and Major Changes Are Planned




                                                       Page 42
   While Improvements Have Been Made, Business Systems
Modernization Cost and Schedule Estimation Processes Have Not
    Always Been Followed and Major Changes Are Planned




                                                       Page 43
